<html>
<title> - PREVENTING HARASSMENT THROUGH OUTBOUND NUMBER ENFORCEMENT (PHONE) ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 PREVENTING HARASSMENT THROUGH OUTBOUND NUMBER ENFORCEMENT (PHONE) ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5304

                               __________

                           NOVEMBER 15, 2006

                               __________

                           Serial No. 109-154

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov







                    U.S. GOVERNMENT PRINTING OFFICE

30-839 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                          David Brink, Counsel

                        Caroline Lynch, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           NOVEMBER 15, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable Tim Murphy, a Representative in Congress from the 
  State of Pennsylvania
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Mr. Barry Sabin, Deputy Assistant Attorney General, Criminal 
  Division, United States Department of Justice
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. James Martin, President and Founder, 60 Plus Association
  Oral Testimony.................................................    18
  Prepared Statement.............................................    19
Mr. Phil Kiko, General Counsel and Chief of Staff, Committee on 
  the Judiciary, United States House of Representatives
  Oral Testimony.................................................    21
  Prepared Statement.............................................    22


 PREVENTING HARASSMENT THROUGH OUTBOUND NUMBER ENFORCEMENT (PHONE) ACT

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chairman of the Subcommittee) presiding.
    Mr. Coble. Ladies and gentlemen, before I convene today's 
hearing, we have virtually no one except the Ranking Member and 
me here, but I want to say this before we start. This will 
likely be our final hearing on this Subcommittee, and I would 
be remiss if I did not express my thanks to each Member who 
served on this Subcommittee, and, in particular, the 
distinguished gentleman from Virginia, the Ranking Member, Mr. 
Scott; Mr. Vassar, his able counsel; Mr. Mike Volkov, and his 
able associates on our side. I think we have had a very 
productive 2-year stint during this session, and I'm 
appreciative to all of you on the Subcommittee. We have had 
good hearings. We've had good witnesses, today being no 
exception. And having said that, we will commence.
    I want to welcome everyone to this important hearing 
regarding fraudulent telephone calls. Today the Subcommittee 
will be conducting a legislative hearing on the PHONE Act, H.R. 
5304, the ``Preventing Harassment through Outbound Number 
Enforcement Act,'' which was introduced by our colleague, 
Representative Timothy Murphy, who represents Pennsylvania's 
18th Congressional District.
    In the last few years, the criminal activity known as 
``spoofing'' has increased. Those who engage in spoofing use an 
incorrect, fake, or fraudulent caller ID to conceal their 
identity in order to facilitate a fraudulent telephone call to 
the recipient.
    Caller ID spoofing involves making one's own phone number 
and identifying information with another phone number and 
identifying information. Call recipients then divulge personal 
and private information to the caller under the mistaken belief 
that the caller is legitimate; that is, a bank, a credit card 
company, a court of law, et cetera. If the recipient of the 
call had known the true identity of the caller, the recipient 
would not have provided the private information.
    Spoofing also invades the privacy of those individuals 
whose caller ID is used to mask fraudulent calls. Some may 
describe spoofing as a way to maintain caller privacy, but it 
is nonetheless fraudulent. Although the technology needed to 
spoof has been available for some time, it requires special 
equipment and knowledge to actually use the masking technology. 
Recently, this technology has become more accessible to the 
average person, either through the purchase of Internet 
telephone equipment or through Web sites specifically set up to 
spoof. These Web sites claim to be set up to protect your 
privacy. However, the use of this technology has been linked to 
fraud, prank telephone calls, political attacks, and 
telemarketers who attempt to avoid the current ``do not call'' 
limits. Additionally, calling cards can be purchased or 
accounts can be set up to allow multiple calls. Further, the 
technology can block any back technology such as the star 
symbol or dash 69.
    Representative Murphy introduced H.R. 5304 to address these 
concerns by creating a new Federal crime to prohibit the 
modification of caller ID with the intent to deceive the 
recipient of a telephone call as to the identity of the caller. 
The bill imposes a fine and/or a prison term of up to 5 years 
for violations.
    However, the legislation does not affect legally available 
blocking of caller ID technology or lawfully authorized 
activities of law enforcement or intelligence agencies. This 
legislation is intended to help protect consumers from 
harassment, identity theft or other crimes. This hearing will 
focus on the need to broaden the scope of current law to deter 
telephone fraud, protect consumers from harassment and to 
better protect consumers and their personally identifiable data 
from fraudulent telephone use, and also the need to increase 
the tools available to the Department of Justice to prosecute 
and protect against criminals who use fake telephone and caller 
ID to commit crime.
    I look forward to learning more about this bill this 
morning, and thank each of our witnesses for participating in 
today's hearing. And before we call upon our witnesses, I am 
pleased to recognize the distinguished gentleman from Virginia, 
the Ranking Member, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. And, Mr. Chairman, you 
indicated that this may well be the last hearing that we have 
this session and you would be Chairman, and I'd like to comment 
on our working relationship. In commenting on it, I'm reminded 
of what President Kennedy said when he began a speech in 
Cleveland, Ohio. He said that there's no city in the United 
States in which I've received a warmer welcome and fewer votes 
than Cleveland, Ohio.
    I think there is no Committee in Congress where I have 
enjoyed a warmer reception and fewer votes from the Chairman, 
but you've been very cordial and you've given everyone an 
opportunity to be heard, and I wish you well in whatever 
Committee that you're on next in the next session.
    Mr. Coble. If the gentleman will yield, those roles may 
well be reversed in about a month, but it's been a pleasure, 
Bobby.
    Mr. Scott. Thank you. But I'm pleased to join you in 
convening this hearing on the PHONE Act. This bill is aimed in 
preventing the practice called ``spoofing,'' where a caller 
uses a fake or fraudulent caller ID to hide his true identity 
in order to irritate, harass, or defraud the recipient of the 
call.
    I'm concerned about the growing aspects of spoofing being 
used for such purposes with impunity, and support the thrust of 
H.R. 5304. However, I think we need to make sure that the bill 
appropriately defines what constitutes spoofing or caller ID 
deception to the extent that criminal penalties should apply 
and what the penalty should be for what kind of spoofing 
intent. We also need to consider whether or not the mere act of 
altering one's caller ID information should be criminalized in 
those situations where there is no indication of intent to 
harass, defraud, or otherwise commit a criminal act.
    Certainly the kinds of problems we expect to hear about 
today from our witnesses, including our own chief counsel, are 
the kinds of situations where we do want them to be covered 
under the bill as criminal acts. However, when there is no 
intent to defraud or harass, we need to consider whether or not 
innocent disguises of one's identity should constitute a crime. 
Disguises are routinely used in Internet names such as 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b3c22272f282322272f0b2a242765282426">[email&#160;protected]</a> or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="503d227e3e393335372529102931383f3f7e3e3524">[email&#160;protected]</a>, and we need to 
consider whether or not the bill should criminalize using a 
similar caller ID for innocent purposes.
    So I'm looking forward to the testimony by witnesses, Mr. 
Chairman, and for guidance on insight on these issues and in 
working with you as we develop a bill to address the problems 
of spoofing that we definitely want to prevent.
    Thank you Mr. Chairman.
    Mr. Coble. Thank you, Mr. Scott, and thank you for your 
generous words as well.
    Gentlemen, it is the practice of this Subcommittee to swear 
in all witnesses. So, if you all would please raise your right 
hand and stand, if you will.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative. Please be seated.
    We are blessed with a very distinguished panel today, and 
for the benefit of those in the audience who may not know the 
identities of the witnesses, I want to give you some background 
about them.
    Our first witness is the Honorable Tim Murphy who is the 
representative of Pennsylvania's 18th District and is the 
primary sponsor of the bill we're addressing today, H.R. 5304. 
Congressman Murphy is a Member of the Energy and Commerce 
Committee and has three Subcommittee assignments, including the 
Subcommittee on Commerce, Trade, and Consumer Protection. From 
1997 to 2002, he served in the Pennsylvania State Senate where 
he penned the State's historic patient bill of rights and 
increased funding for medical research. Since his election to 
Congress in 2003, he has continued to be a leader in health 
issues as a member of the Congressional Mental Health Caucus 
and the 21st century Health Care Caucus. Congressman Murphy 
holds a bachelor's degree from Wheeling Jesuit University, a 
master's degree from Cleveland State University, and a Ph.D. 
from the University of Pittsburgh.
    Our second witness is Mr. Barry Sabin, Deputy Assistant 
Attorney General of the Criminal Division of the United States 
Department of Justice. In this capacity, Mr. Sabin is 
responsible for overseeing the Fraud Section, Criminal 
Appellate Section, Gang Squad, and Capital Crimes Unit. Mr. 
Sabin served as the Chief of the Criminal Division's 
Counterterrorism Section from 2002 to 2006, during which he 
received the Henry Petersen Award, the Criminal Division's 
highest honor. Prior to coming to Washington, he served for 
nearly a dozen years as a Federal criminal trial prosecutor, 
and held a number of supervisory positions in the United States 
Attorney's Office in South Florida. Mr. Sabin received his 
bachelor's and master's degrees from the University of 
Pennsylvania and his law degree from the New York University 
School of Law.
    Now, Mr. Sabin, I'm going to hold you harmless for this, 
but our Justice Department is infamously belated in getting its 
statements to us. As I say, I'm not blaming you for that, but 
if you could take back to Justice--I'm looking forward to the 
next session of Congress now. If they could provide us with the 
written testimony in a more timely way, we would be 
appreciative.
    Mr. Sabin. Yes, sir.
    Mr. Coble. We will not kill the messenger in this case, but 
if you could convey that, I would be appreciative to you.
    Our third witness is Mr. James Martin, President and 
Founder of the 60 Plus Association, a seniors advocacy group. 
Under Mr. Martin's leadership, membership at 60 Plus has soared 
to over 500,000, and the Association has ranked saving Social 
Security for future generations among its top priorities. In 
addition to founding 60 Plus, Mr. Martin has helped organize 
and direct several other advocacy groups, including the 
National Conservative Political Action Committee and the Public 
Service Research Council. Mr. Martin received a bachelor's 
degree in journalism from the University of Florida where he 
won a William Randolph Hearst award for writing;
    And, Mr. Martin, I know you've done a very commendable job 
with 60 Plus. I had no idea your membership had soared a half 
million. That speaks well for your leadership.
    Our final witness is unknown to none of us on this panel, 
Mr. Phil Kiko, Chief of Staff and General Counsel for the House 
Committee on the Judiciary. Prior to taking his current 
position with the Committee, Mr. Kiko served first as 
Legislative Director and then as Chief of Staff in Congressman 
F. James Sensenbrenner's congressional office. He also worked 
as Associate Counsel for the Judiciary Subcommittee on Civil 
and Constitutional Rights, where he focused on proposed 
constitutional amendments, crimes, civil rights, FBI, and 
immigration issues. He has been instrumental in the Committee 
on the Judiciary's passing of the USA PATRIOT Act, legislation 
overhauling the INS, visa reform, Border Security Act, and the 
first Justice Department authorization in over 20 years. Mr. 
Kiko earned his undergraduate degree at Mount Union College and 
received his J.D. from the International School of Law, now 
known as the George Mason University School of Law.
    Mr. Kiko, I'm amplifying my ignorance now, but tell me 
where Mount Union is located.
    Mr. Kiko. Alliance, Ohio.
    Mr. Coble. I figured there was a Buckeye connection there 
somewhere.
    Gentlemen, we've been joined by the gentleman from Ohio, 
Mr. Chabot, and the gentleman from Florida, Mr. Keller, and no 
one on the minority side yet.
    Gentlemen, we traditionally operate under the 5-minute rule 
here. When the amber light appears on your panel, that is your 
warning that you're running out of time. You'll have a minute 
to go at that point, and no one will be assaulted if you 
violate the 5-minute rule, but when the red light appears, the 
5 minutes have elapsed, and at that point if you could wrap up, 
we would be appreciative.
    I'm going to start with Mr. Murphy. Good to have you with 
us today.

  TESTIMONY OF THE HONORABLE TIM MURPHY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman and Mr. Scott and 
Members of the Subcommittee. I appreciate an opportunity to 
discuss this bill H.R. 5304, the Preventing Harassment through 
Outbound Number Enforcement Act, or the PHONE Act; or, in this 
case, the PHONE bill.
    Identity theft has become an increasingly critical problem 
for consumers. The Federal Trade Commission revealed earlier 
this year that 10 million individuals are the victims of 
identity theft each year, and identity theft is the number one 
consumer complaint in each of the 50 States. The disastrous 
implications of identity theft for consumers include damaged 
credit and financial ruin, and the effects can tear apart 
families.
    Congress has repeatedly tried to prevent identity theft. 
Unfortunately, with new technology comes new risk and new 
opportunities for criminals to skirt the law. One of these 
technologies used by thieves is the practice of call spoofing, 
or caller ID fraud, where one masks their identity by altering 
the outbound caller ID number in order to mislead the call 
recipient. Some may describe call spoofing as a way to maintain 
caller privacy, but it is nothing less than fraud when used 
maliciously. That is because accountability is critically 
important in our judicial system. Caller ID fraud takes away 
accountability from people who wish to do harm to others.
    Consider the effects of the false use of caller ID in other 
areas. Past Federal and State efforts to block unwanted phone 
solicitation with ``do not call'' lists was to provide some 
privacy for citizens, but when someone hijacks your phone 
number, they can bypass that protection.
    I believe Congress must enact a law to penalize caller ID 
fraud perpetrators. This bill is particularly necessary to 
protect American families, the elderly and businesses because 
illegally using another person's phone number could have 
limitless unlawful applications.
    It doesn't take much imagination to understand how 
dangerous this practice could be for unlawful people. A 
criminal could try to obtain personal financial information 
from individuals by using a bank's phone number. An ex-spouse 
could harass a former wife or husband who has blocked calls 
from the ex-spouse's phone line. A pedophile could stalk a 
child by stealing a school phone number or the phone number of 
a friend of the child. A sexual predator could use a doctor's 
office phone number. A terrorist could make threats from a 
Government phone number. The list goes on.
    The criminal use of caller ID fraud is not just a 
possibility, however. Here are some real-world examples of 
caller ID fraud that are very real and very disturbing. The 
AARP Bulletin reported a case in which people received calls 
that made false claims that they missed jury duty. To avoid 
prosecution, these individuals were asked for their Social 
Security number and other personal information. The phone 
number that appeared on their caller ID was from the local 
courthouse, so people assumed the caller was telling the truth.
    The security company, Secure Science Corporation, has 
stated that criminals have accessed legal call spoofing 
Internet sites in order to protect their identities while they 
buy stolen credit card numbers. These individuals call a money 
transfer service such as Western Union and use a fake caller ID 
and a stolen credit card number to order cash transfers to 
themselves.
    In 2005, SWAT teams surrounded an empty building in New 
Brunswick, New Jersey after police received a call from a woman 
who said she was being held hostage in an apartment. She was 
not in the apartment, and the woman had intentionally used a 
false caller ID. Imagine what might have happened.
    For these reasons, I have introduced H.R. 5304 to punish 
those who engage in the intentional practice of misleading 
others through caller ID fraud. Violators of the bill would be 
subject to a penalty of up to 5 years in prison and up to 
$250,000 in fines. Unfortunately, pursuing these criminals is 
difficult and particularly resource-intensive. The House has 
already expressed its will on this matter, unanimously passing 
H.R. 5126, the Truth in Caller ID Act, which I have 
cosponsored, but this bill only asks the Federal Communications 
Commission to create a rule to prohibit caller ID fraud in 6 
months. There are no penalties in the bill, and it doesn't stop 
people from skirting that law and still doing this. The Senate 
has not acted on H.R. 5126, and so the problems remain.
    I also include an amendment to prompt the FCC to address 
the practice of caller ID fraud in H.R. 5672, the Fiscal Year 
2007 Science, State, Justice, Commerce Appropriations Act. 
Still, I believe my bill, H.R. 5304, appropriately goes further 
by amending criminal law to fully protect Americans from the 
practice of caller ID fraud.
    Over the years, Congress has been criticized as a reactive 
institution. Today, this Subcommittee is proactively 
considering a good idea that addresses a problem before a 
tragedy occurs. Today, we have a chance to help stop crime, 
prevent identity theft and protect lives.
    Thank you for your commitment to the personal identity 
security of all Americans, and I would be happy to answer any 
questions you may have. Thank you, Mr. Chairman.
    Mr. Coble. And you have applied pressure to your colleagues 
because you beat the red light, Mr. Murphy. I commend you for 
that.
    [The prepared statement of Mr. Murphy follows:]
  Prepared Statement of the Honorable Tim Murphy, a Representative in 
                Congress from the State of Pennsylvania
    Mr. Chairman, Ranking Member Scott, distinguished colleagues of the 
Committee, thank you for inviting me to speak before you today on 
behalf of my legislation, H.R. 5304, the Preventing Harassment through 
Outbound Number Enforcement Act, or the PHONE Act.
    Identity theft has become an increasingly critical problem for 
consumers. The Federal Trade Commission revealed earlier this year that 
10,000,000 individuals are victims of identity theft each year, and 
identity theft is the number one consumer complaint in each of the 
fifty states. The disastrous implications of identity theft for 
consumers include damaged credit and financial ruin, and the effects 
can tear apart families.
    Congress has repeatedly tried to prevent identity theft. 
Unfortunately, with new technology comes new risks and new 
opportunities for criminals to skirt the law. One of these technologies 
used by thieves is the practice of ``call spoofing,'' or ``caller ID 
fraud,'' where one masks their identity by altering their outbound 
caller ID number in order to mislead the call recipient. Some may 
describe call spoofing as a way to maintain caller privacy. But it is 
nothing less than fraud. That's because accountability is critically 
important in our judicial system. Caller ID fraud takes away 
accountability from people who wish to do harm to others.
    Stealing, masking or otherwise altering one's caller identification 
to deceive is a new tool in the hands of criminals. The practice of 
caller ID fraud can be tremendously harmful to consumers.
    Consider the effects of the false use of caller ID in other areas. 
Past federal and state efforts to block unwanted phone solicitations 
with ``Do Not Call'' lists was to provide some privacy for citizens. 
But when someone hijacks your phone number, they can bypass that 
protection.
    I believe Congress must enact a law to penalize caller ID fraud 
perpetrators. This bill is particularly necessary to protect American 
families, the elderly and businesses, because illegally using another 
person's phone number could have limitless unlawful applications. It 
doesn't take much imagination to understand how dangerous this practice 
could be for unlawful people:

        <bullet>  A criminal could try to obtain personal financial 
        information from individuals by using a bank's phone number,

        <bullet>  An ex-spouse could harass a former wife or husband 
        who has blocked calls from the ex-spouse's phone line,

        <bullet>  A pedophile could stalk a child by stealing a school 
        phone number or the phone number of a friend of the child,

        <bullet>  A sexual predator could use a doctor's office phone 
        number, or

        <bullet>  A terrorist could make threats from a government 
        phone number.

    The criminal use of caller ID fraud is not just a possibility. Here 
are some real world examples of caller ID fraud that are real and very 
disturbing:

        <bullet>  
    The AARP Bulletin reported cases in which people received calls 
that made false claims that they missed jury duty. To avoid 
prosecution, these individuals were asked for their Social Security 
number and other personal information. The phone number that appeared 
on their caller ID was from the local courthouse, so people assumed the 
caller was telling the truth.

        <bullet>  The security company, Secure Science Corporation, has 
        stated that criminals have accessed legal call spoofing 
        Internet sites in order to protect their identities while they 
        buy stolen credit card numbers. These individuals call a money 
        transfer service such as Western Union and use a fake Caller ID 
        and a stolen credit card number to order cash transfers to 
        themselves.

        <bullet>  In 2005, SWAT teams surrounded an empty building in 
        New Brunswick, New Jersey, after police received a call from a 
        woman who said she was being held hostage in an apartment. She 
        was not in the apartment, and the woman had intentionally used 
        a false caller ID. Imagine what might have happened.

    For these reasons, I have introduced H.R. 5304 to punish those who 
engage in the intentional practice of misleading others through caller 
ID fraud. Violators of the bill would be subject to a penalty of up to 
five years in prison and fines of $250,000. Unfortunately, pursuing 
these criminals is difficult and particularly resource intensive.
    The House has already expressed its will on this matter, 
unanimously passing H.R. 5126, the Truth in Caller ID Act, which I have 
cosponsored. But this bill only asks the Federal Communications 
Commission to create a rule to prohibit caller ID fraud in six months. 
There are no penalties in the bill. The Senate has not acted on H.R. 
5126, and so the problems remain. I also included an amendment to 
prompt the FCC to address the practice of caller ID fraud in H.R. 5672, 
the Fiscal Year 2007 Science, State, Justice, Commerce Appropriations 
Act. Still, I believe my bill, H.R. 5304, appropriately goes further by 
amending criminal law to fully protect Americans from the practice of 
caller ID fraud.
    Over the years, Congress has been criticized as a reactive 
institution. Today, this subcommittee is proactively considering a good 
idea that addresses a problem before a tragedy occurs. Today we have a 
chance to help stop crime, prevent identity theft and protect lives.
    Thank you for your commitment to the personal identity security of 
all Americans. I would be happy to answer any questions you might have.

    Mr. Coble. Mr. Sabin.

 TESTIMONY OF BARRY SABIN, DEPUTY ASSISTANT ATTORNEY GENERAL, 
     CRIMINAL DIVISION, UNITED STATES DEPARTMENT OF JUSTICE

    Mr. Sabin. Good morning, Mr. Chairman, Ranking Member 
Scott, and Members of the Subcommittee. It is my pleasure to 
appear before you today to discuss H.R. 5304, the Preventing 
Harassment through Outbound Number Enforcement Act.
    The United States Department of Justice supports 
congressional action such as the PHONE Act to provide law 
enforcement better tools to protect our citizens and our 
countries from identity thieves, stalkers, fraudsters, and 
other criminals. The phone Act targets caller ID spoofing. That 
is the falsifying of information transmitted by the telephone 
network that causes a call recipient's caller identification 
equipment to display incorrect information about who is 
calling. Recent changes in technology, particularly Voiceover 
Internet Protocol equipment, have made caller ID spoofing 
relatively easy and inexpensive. As a result, services 
available through the Internet or through toll-free telephone 
numbers have brought caller ID spoofing to the mainstream. 
These services allow users to have placed calls while enabling 
the user to choose any number they wish to appear on their 
recipients' caller ID displays. There is no meaningful way for 
consumers to opt out of receiving spoofed calls or to prevent 
their telephone numbers from being spoofed.
    While this technology is relatively new, we are already 
seeing it being misused. Criminals can use caller ID spoofing 
to facilitate a number of crimes, including identity theft, 
harassment, privacy invasions, and other types of fraud. Caller 
ID spoofing can assist a criminal to trick an individual into 
providing a credit card number or a Social Security number or 
to fool a domestic abuse victim into accepting a harassing 
call. Identity thieves, hackers and other criminals also can 
use caller ID spoofing to circumvent security measures put in 
place by financial institutions, communication service 
providers and others. These concerns are not theoretical. We 
know that criminals are using these caller ID spoofing services 
to further their crimes today.
    The crux of the crime is the criminal's intent to mislead. 
For instance, James Turner Hopper recently pleaded guilty to 
several Federal felony offenses, including identity theft. Mr. 
Hopper was able to use caller ID spoofing more than 150 times 
in order to hide his true identity and to defeat security 
controls while attempting to steal over $88,000. Hopper was 
recently sentenced to 30 months' incarceration in the United 
States District Court for the Southern District of California.
    The Justice Department is concerned with the widespread 
availability of caller ID spoofing services that present 
significant potential for abuse and hinder law enforcement's 
ability to timely and thoroughly investigate crime. We believe 
that this matter merits further study and suggests that 
Congress consider whether a civil or criminal prohibition on 
caller ID spoofing services in appropriate circumstances would 
be warranted. We would be happy to work with the Committee and 
Subcommittee in exploring the issue further.
    In addition, the Justice Department has a variety of 
suggestions to clarify and strengthen the bill that will be 
provided to the Subcommittee shortly. Among other 
recommendations, DOJ suggests that the drafters consider a more 
graduated series of offenses that would allow prosecutors to 
charge a full range of misdemeanor and felony offenses as well 
as forfeiture provisions in appropriate circumstances. The 
Department of Justice appreciates this Subcommittee's proactive 
leadership in making sure that our country's laws meet this new 
challenge.
    Thank you for the opportunity to testify today and for your 
continuing support. I am happy to answer any questions you may 
have.
    Mr. Coble. Mr. Sabin, you, too, were very disciplined in 
beating the red light.
    [The prepared statement of Mr. Sabin follows:]
                   Prepared Statement of Barry Sabin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Mr. Martin, the pressure is upon you now.

       TESTIMONY OF JAMES MARTIN, PRESIDENT AND FOUNDER, 
                      60 PLUS ASSOCIATION

    Mr. Martin. Thank you, Mr. Chairman, and Mr. Chairman to 
be. I appreciate the opportunity here to offer some comments. 
And by the way, I need to update my biographical sketch. That 
500,000 has grown 10 years ago to about 5 million now and is 
still growing. We're not nearly with the AARP, but we're 
getting there.
    Incidentally, my honorary chairman is a former colleague of 
yours, Roger Zion of Evansville, Indiana. Hale and hearty at 85 
years young, Roger was elected to the 90th Congress in 1966 and 
served with distinction here for 4 consecutive terms.
    I'm also proud of the fact that our National spokesman is 
none other than the legendary entertainer Pat Boone. In the Top 
10 all-time of recording artists, nobody but nobody sold more 
records in the fifties and sixties than Pat, except for a 
fellow by the name of Elvis.
    I don't want to attempt to have you believe that I am an 
expert on spoofing or phishing. That's ``phishing'' spelled 
with a P-H, by the way, not the way that we spell the 
recreational activity that so many of us ``gray hairs'' like 
myself enjoy; but in a sense, that's why we're here, isn't it? 
Things aren't always what they seem in this brave new world of 
high-tech, and we seniors accept that it's the progress that it 
represents. What we're not about to accept is fraud, deceit, 
larceny, character assassination, and identity theft. We didn't 
accept it back in the fifties when the guy selling aluminum 
siding left us holding the bag. We didn't, in recent years, as 
telephone scams were perfected, and we won't now with 
cyberspace being manipulated for the same ends: greed.
    This matter of spoofing or phishing strikes me as serious 
business. Just as seniors are beginning to get computer 
literate, we've learned some basics like with spam. Over time, 
we've learned it's garbage via e-mail that we didn't ask for, 
and as an unwanted document, we can merely delete the file. 
It's a pain in the neck, but it isn't lethal. But with 
phishing, a senior logs onto their e-mail account and is duped 
by use of a legitimate name or vendor that they may have an 
actual account with--say, the bank or credit card--and since 
they're likely to want to access the information, they click 
onto a link or otherwise take action and fill out personal 
information, something they innocently believe is an update, 
but it's really designed to give the phishers personal 
information that could be lethal.
    This matter of spoofing strikes me as a new low. Someone 
receives an e-mail from a friend or a loved one. Surely, anyone 
would open that message, right? Well, hold on. It turns out 
with spoofing, a virus attacks your address book or seizes 
addresses from your ``to'' and
    from'' field and manipulates it in such a way that you're 
either sending or receiving a knockout blow of a virus. This is 
bad stuff.
    It's much the same for the telephone. Let's say you're 
paying for a service we all know, called ``caller ID''. Well, 
be careful. The number you recognize as your Aunt Betty's 
number really isn't hers. The bad guys spoofed poor Aunt Betty 
and grabbed her number to mask the bad guy's real number. And 
lo and behold, you pick up, and the connection is made, like it 
or not. It could be a telemarketing scam. It could be just 
about anything. It's bad stuff.
    As more seniors get Internet savvy, as telephones and cell 
phones become smart phones, the opportunity to be scammed only 
goes up. We at 60 Plus have not received what you might 
consider an alarming number of complaints on this issue, but 
it's only a matter of time. This is a stink that's coming, and 
we want to be proactive. So, for example, in the next edition 
of our national quarterly magazine, Senior Voice, I plan to 
post this very testimony and publicize these important 
hearings. But let's face it: While we seniors have slowed down 
some, we still would like to think we're quick enough to handle 
the telephone or surf the Net with some dispatch. Now, we have 
a right to expect fair play on the other end. If not, then we 
have a legitimate right to ask our elected officials to step up 
to the plate and do the right thing--pass tough, no-nonsense 
laws that severely penalize those who would wish us harm.
    In closing, seniors are shut-ins, sometimes connected to 
the outside world by the phone and now, increasingly, by the 
Internet. They're alone and they're lonely and they're easy 
victims. It's my hope that this Committee will do whatever is 
necessary to ensure that scammers get nailed for stealing 
seniors' passwords, user names, bank information, credit card 
data, and more.
    Thank you for your compassion, and while my time is not up, 
I sincerely thank you for yours.
    Mr. Coble. I confess ignorance and embarrassment, Jim. We 
were taking the 500,000 from your bio, and I didn't even 
realize that there were 500,000, much less 5 million, but I 
commend you for that, and I wish--I think I speak for Bobby. I 
want you to convey good wishes to Roger and to Pat Boone, if 
you will.
    [The prepared statement of Mr. Martin follows:]
                 Prepared Statement of James L. Martin
    Good morning, I'm Jim Martin, President of the 15-year-old-and-
counting 60 Plus Association \1\ and I appreciate the invitation to 
offer comments today on behalf of some 5 million senior citizens we 
call upon for support. For the record, I have prepared remarks and I'll 
now summarize: incidentally, my Honorary Chairman is a former colleague 
of yours, Roger Zion of Evansville, Indiana. Hale and hearty at 85 
years young, Roger was elected to the 90th Congress in 1966 and served 
four consecutive terms. I'm proud of the fact that our national 
spokesman is none other than the legendary entertainer, Pat Boone. In 
the Top 10 all-time of recording artists, nobody but nobody sold more 
records in the 50s than Pat except for a fellow named Elvis.
---------------------------------------------------------------------------
    \1\ The 60 Plus Association is a 15-year-old nonpartisan 
organization taking on important issues such as death tax repeal, 
saving Social Security, working to lower energy costs, affordable 
prescription drugs and other senior-friendly issues featuring a less 
government, less taxes approach. 60 Plus calls on support from nearly 
4.5 million citizen activists. 60 Plus publishes a quarterly magazine, 
SENIOR VOICE, and a Scorecard, bestowing a Guardian of Seniors' Rights 
award on lawmakers of both parties who vote ``pro-senior.'' 60 Plus has 
been called ``an increasingly influential senior citizen's group.'' 60 
Plus has established a membership benefit program. To join 60 Plus or 
for further information, please go to our website at www.60plus.org or 
call 888-560-PLUS (7587).
---------------------------------------------------------------------------
    I don't stand here today attempting to have you believe I'm an 
expert on ``spoofing'' or ``phishing'' . . . that's fishing spelled 
with a ``ph'', by the way, not the way I'm accustomed to spelling the 
recreational activity so many ``gray hairs'' like myself enjoy.
    But you know, in a sense, I suppose that's what we're here about 
now, isn't it? Things that aren't really what they seem. Fishing 
spelled with a ``ph''. ``Mac'' not being your golfing buddy but a 
computer system. ``Windows'' not being what you clean each spring but 
rather what has made Bill Gates a household name. ``Wallpaper'' that 
has nothing whatever to do with walls; ``bugs'' having nothing to do 
with insects; and a ``cursor'' having nothing to do with inappropriate 
language.
    And don't even ask me about iPods and Bluetooths or Boysenberries . 
. . or is that Blackberry's?
    You see, the old warhorse that I am, I know that things ain't 
always what they seem in this brave new world of hi-tech. And we 
seniors are prepared to accept that for the great rush of progress that 
it represents. But what we're NOT about to accept is fraud, deceit, 
larceny, character assassination and identity theft. We didn't back in 
the 1950s when the guy selling aluminum siding left us holding the bag 
. . . we didn't in recent years as telephone scams were perfected . . . 
and we won't now with cyberspace being manipulated for the same ends: 
greed.
    This matter of ``spoofing'' or ``phishing'' strikes me as very 
serious business. Just as we seniors are beginning to get computer 
literate, we've learned some basics: like with ``spam''--over time 
we've learned that it's garbage via email that we didn't ask for and as 
an unwanted document, we can merely delete the file. It's a pain in the 
neck, but it isn't lethal.
    But with ``phishing,'' a senior logs on to their email account and 
is duped by use of a legitimate name or vendor that they may have an 
actual account with--say the bank or MasterCard or eBAY--and since 
they're likely to want to access the information, they click on to a 
link or otherwise take action and fill-out personal information--
something they innocently believe is an update--but is really designed 
to give the ``phishers'' personal info that indeed could be lethal!
    Or take this matter of ``spoofing'' . . . this strikes me as a new 
low! Someone receives an email from a friend or loved one . . . well 
surely, anyone would open that missive, right? Well, hold on! Turns out 
with ``spoofing,'' a virus attacks your address book or seizes 
addresses from your TO and FROM fields and manipulates it in such a way 
that you are either sending or receiving a knock-out blow of a virus! 
Very bad stuff, for certain.
    And it's much the same for the telephone . . . let's say you're 
paying for a service we all know called Caller ID. Well careful, now 
the number you recognize as your Aunt Betty's number really isn't hers! 
The bad guys ``spoofed'' poor Aunt Betty and grabbed her number to mask 
the bad guy's real number and lo and behold, you pick up and the 
connection is made, like it or not. Could be a telemarketing scam, 
could be pornography, could be just about anything! Bad stuff!
    I'm an old direct mail guy . . . snail mail, if you will . . . and 
after 40 years, probably know as much or more about the direct mail 
business as most. Could the direct mail business get pretty shoddy? Of 
course it could BUT the recipient wasn't electronically connected; and 
they were in the privacy of a home or office, able to dispose of the 
literature opened or unopened and the matter was over and done with. 
That's not the way today. And as more of my seniors with 60 Plus get 
``Internet'' savvy, as telephones and cell phones become 
``smartphones'' and ooze into every facet of our personal and business 
lives, the opportunity to be scammed only goes up.
    I'll be perfectly candid with you here: we at 60 Plus have not 
received what you might consider an alarming number of complaints on 
this issue. But it's only a matter of time. This is a stink that's 
coming and we want to be proactive. So, for example, in the next 
edition of our national quarterly magazine, Senior Voice, I plan to 
post this very testimony I'm delivering today and publicize these 
important hearings.
    But let's face it, while we seniors have slowed down some, we still 
would like to think we're quick enough to handle the telephone or surf 
the Net with some dispatch--and we have a right to expect fair play on 
the other end. If not, then we have a legitimate right to ask our 
elected officials to step up to the plate and do the right thing: pass 
tough, no-nonsense laws that severely penalize those who would wish us 
harm.
    In closing, I'll tell you testifying at events like these make me 
pretty hungry. I don't mind telling you I'm looking forward to lunch 
this afternoon; I'm going to have some ``Spam'' . . . the food staple 
I've known for decades . . . followed by a few ``bytes'' of a some 
``cookies'' . . . really, munch down on some Oreos . . . brought to me 
by a ``server'' . . . you know, a real waiter . . . and I'll wash it 
all down with some ``Java'' . . . honest-to-God coffee!
    Well, there's my two ``bits'' . . . pun intended.
    Seriously, I thank you for your allowing 60 Plus to weigh in on 
this important matter to seniors. It's my hope that this committee will 
do whatever is necessary to ensure the scammers get nailed for stealing 
senior's passwords, usernames, bank information, credit card data and 
more.
    I'd also be remiss if I didn't mention how I appreciate Rep. Tim 
Murphy (R-PA) introducing this important legislation . . . H.R. 5304, 
the Preventing Harassment through Outbound Number Enforcement Act . . . 
and acknowledge his consistent service to senior citizens, observing he 
served as Chair of the Pennsylvania Committee on Aging when he was in 
the state Senate there.
    Well, I see my time is up . . . I thank you, most sincerely, for 
yours.

    Mr. Coble. And as an aside, Mr. Scott, I don't think I 
remember a single hearing where all four witnesses beat the red 
light, so the pressure is on Mr. Kiko.
    The gentleman is recognized for 5 minutes.

  TESTIMONY OF PHIL KIKO, GENERAL COUNSEL AND CHIEF OF STAFF, 
      COMMITTEE ON THE JUDICIARY, UNITED STATES HOUSE OF 
                        REPRESENTATIVES

    Mr. Kiko. Yeah. I guess I'd better comply with the 
Chairman's rule; is that correct? All right.
    Good morning, Chairman Coble, Ranking Member Scott and 
Members of the Subcommittee. I thank you for the opportunity to 
testify regarding the need to pass H.R. 5304, legislation which 
criminalizes spoofing, the act of modifying telephone caller 
identification information with the intent to mislead the 
recipient as to the identity of the actual caller. I appear 
before you this morning as a victim who has experienced 
firsthand the invasion of my personal privacy and information 
and the frustration caused by spoofing.
    Spoofing creates two categories of victims: first, the 
person who receives the telephone call identified as coming 
from someone other than the actual caller; and, two, the person 
whose caller identification is used fraudulently to disguise 
the true identity of the caller.
    I fall into the second category, because without our 
family's knowledge or consent, my caller identification was 
used, obviously hundreds of times, to mask the true identity of 
a fraudulent caller. As a result, my family and I received up 
to 20 phone calls a day over a several months' period of time 
from people who fall into Category 1, who were either returning 
the telephone call of a fraudulent caller, asking me to stop 
calling them, or asking me to take them off the telemarketing 
list.
    However, the harm to the victims of spoofing does not end 
with being inundated with, you know, daily and unwanted 
telephone calls.
    The impact of spoofing on victims is compounded by the fact 
that it is extremely difficult for victims, and apparently for 
the telephone companies and for anyone else, to identify the 
source of and the names of individuals placing the fraudulent 
telephone calls or to prevent the victim's caller ID from being 
circulated to other fraudulent callers working off mass mailing 
or telemarketing lists. Thus, even if the original fraudulent 
caller is identified, there's a high probability that the 
victim's information will already have been forwarded multiple 
times to other unscrupulous callers and telemarketers. In some 
instances, the minutes used for fraudulent telephone calls have 
been charged to the victim's telephone plans. As a result, the 
negative impact on the victim never ends but, instead, only 
snowballs and gets worse.
    Currently, the victims of spoofing have little or no 
recourse against those who spoof. The only effective way to end 
being victimized is to change one's telephone number, at a 
great inconvenience, due in part to the infrastructure and 
technical operations of the telephone companies.
    In an attempt to put a stop to the never-ending and 
unwanted phone calls to my house and to stop my caller ID from 
being used to facilitate fraudulent calls, we contacted the 
telephone company to inquire as to our options. To our 
frustration, my wife's and my frustration, we were informed 
that we could not prevent our caller ID from being used to 
facilitate spoofing. Instead, the only way our caller ID would 
not be used is if the recipient of the call contacted the 
telephone company requesting that all calls from our caller ID 
be blocked. Thus, the only way our caller ID would be totally 
stopped from being fraudulently used is if every single person 
who received a fraudulent phone call contacts the telephone 
company and requests that calls to our caller ID be blocked, a 
highly unlikely scenario, especially in light of the fact that 
our caller ID will have most likely been passed on to other 
fraudulent callers.
    Ultimately, like so many other victims of spoofing, we were 
left with the only effective option of changing the telephone 
number that our family and I have had for 16 years. This has 
obviously been a significant inconvenience. But even changing 
our telephone number is no guarantee that we will not be 
victims of spoofing again, because the bad actors could obtain 
our new telephone number and the violations would start all 
over.
    In conclusion, spoofing has no valid social or economic 
purpose, and it is a serious problem. Our family has 
experienced firsthand the invasion of privacy and inconvenience 
and frustration, and sometimes harassment, from spoofing, but 
we have heard very compelling testimony from the other 
witnesses at this table about the criminal aspects regarding 
spoofing.
    So I want to thank the Subcommittee for holding a hearing 
on H.R. 5304, the PHONE Act, which will help reduce and 
hopefully eliminate the harmful activity of spoofing. Thank you 
very much.
    Mr. Coble. Thank you, Mr. Kiko.
    [The prepared statement of Mr. Kiko follows:]
                Prepared Statement of Phil Kiko, Esquire
                              introduction
    Good morning, Chairman Coble, Ranking Member Scott, and Members of 
the Subcommittee. My name is Phil Kiko and I thank you for the 
opportunity to appear before you this morning, to testify regarding the 
need to pass H.R. 5304, legislation which criminalizes Spoofing, the 
act of modifying telephone caller identification information with the 
intent to mislead the recipient as to the identity of the actual 
caller. I appear before you this morning to testify as a victim who has 
experienced first hand the invasion of my personal privacy and 
information, the harassment, and the frustration caused by Spoofing.
                               testimony
    The act of Spoofing creates two categories of victims: 1) the 
person who receives a telephone call identified as coming from someone 
other than the actual caller; and 2) the person whose caller 
identification is used fraudulently to disguise the true identity of 
the caller. I fall into the second category, because without my 
knowledge or consent, my caller identification (``ID'') was used 
hundreds, if not thousands, of times to mask the true identity of a 
fraudulent caller. As a result, my family and I have received up to 20 
telephone calls a day from angry people who fall into category one, who 
were either: returning the telephone call of the fraudulent caller; 
asking me to stop calling them; or asking me to take them off the 
telemarketing list.
    However, the harm to the victims of Spoofing does not end with 
being inundated daily with unwanted telephone calls. The impact of 
Spoofing on victims is compounded by the fact that it is extremely 
difficult for the victims (and apparently for the telephone companies 
and for anyone else) to identify the source of, and or the names of 
individuals placing the fraudulent telephone calls; or to prevent the 
victim's caller ID from being circulated to other fraudulent callers 
working off of mass-mailing or telemarketing lists. Thus, even if the 
original fraudulent caller is identified, there is a high probability 
that the victim's information will have already been forwarded multiple 
times to other unscrupulous callers and telemarketers. In some 
instances, the minutes used for fraudulent telephone calls have been 
charged against the victim's telephone plans. As a result, the negative 
impact to the victim never ends, but instead only snowballs and gets 
worse and worse.
    Currently, the victims of Spoofing have little or no recourse 
against those who Spoof. The only effective way to end being victimized 
is to change one's telephone number--a great inconvenience; due in part 
to the infrastructure and technical operations of the telephone 
companies.
    In an attempt to put a stop to the never-ending harassment and 
annoyance of unwanted telephone calls to my house, and to stop my 
caller ID from being used to facilitate fraudulent calls: I contacted 
my telephone company to inquire as to my options. To my frustration, I 
was informed that I could not prevent my caller ID from being used to 
facilitate Spoofing. Instead the only way my caller ID would not be 
used, is if the recipient of the call contacted the telephone company 
requesting that all calls from my name and number be blocked. Thus, the 
only way my caller ID would totally be stopped from being fraudulently 
used is if every single person who receives a fraudulent call contacts 
the telephone company and requests that calls from my caller ID be 
blocked; a highly unlikely scenario, especially in light of the fact 
that my caller ID will have most likely been passed on to other 
fraudulent callers.
    Ultimately, like so many other victims of Spoofing, I was left with 
only one effective option: changing the telephone number that my family 
and I have had for fifteen years. This has been a significant 
inconvenience, as my family and I had to inform our family, friends and 
employers of the number change, as well as those companies that provide 
basic services such as utilities and cable. But even changing our 
telephone number is no guarantee that we will not be a victim of 
Spoofing again, because the bad actors could obtain our new telephone 
number, and the violations start all over.
                               conclusion
    In conclusion, Spoofing, has no valid social or economic purpose, 
and is thus a serious problem. My family and I have experienced first 
hand the invasion of privacy, harassment, inconvenience and frustration 
caused by Spoofing.
    I want to thank this Subcommittee for holding this hearing on H.R. 
5304, the PHONE Act, which will help reduce and hopefully eliminate the 
harmful activity of Spoofing. I am happy to answer any questions.

    Mr. Coble. And, Mr. Scott, we failed to set a record. Mr. 
Kiko, the red light did illuminate just at the wrong time. 
We'll hold you harmless for that. Now, gentlemen, we also 
impose the 5-minute rule against ourselves as well. Let me 
start by putting a hypothetical to Mr. Murphy or to Mr. Sabin.
    Mr. Murphy, let's assume that I'm going to move some 
furniture, and I know that Bobby Scott has a truck, and I know 
he's not going to be interested in loaning--in lending that 
truck to me, and he's going to avoid me. If I could ever 
contact him, I think he'll be obliged to give me his truck. I 
use Mr. Chabot's phone number, figuring he would accept 
Chabot's call. I get him on the phone, and then I put my 
question to him, and Bobby reluctantly loans the truck to me, 
but voluntarily. Now, have I committed a crime under your bill, 
Mr. Murphy or Mr. Sabin?
    Mr. Murphy. No, I don't believe that is a crime under these 
circumstances and certainly would be willing to work with the 
Committee and the Justice Department to make sure we clearly 
define that, because what happened there is you did not commit 
a crime. However, if you used another phone number to access 
private information--a Social Security number, credit card 
numbers, et cetera--then it goes in that category.
    What I see as the importance of this bill is really adding 
a penalty when you use the phone and the phone spoofing to 
commit a crime.
    Mr. Coble. Well, in my hypothetical, Mr. Scott really has 
lost nothing. He voluntarily relinquished the use of the truck, 
but he wouldn't have done it if I'd used my phone number.
    Mr. Sabin, what do you say to this?
    Mr. Sabin. Currently, under Federal law, spoofing is not a 
Federal crime. It can be critical as a means for trying to 
accomplish some kind of scheme to defraud or other types of 
illegality in certain circumstances, so we would address it 
through mail fraud, wire fraud, other kinds of fraud-based 
offenses. The key is the mens rea, the intent--the intent to 
mislead in order to seek to obtain some property or some kind 
of financial remuneration in certain circumstances, or harass 
or do other things in other circumstances.
    So you could have a range of penalties from a misdemeanor, 
depending upon the kind of intent that you are seeking to 
accomplish, but based upon your factual circumstances, it 
certainly wouldn't be one that we would exercise prosecutorial 
discretion; nor, based upon your facts, would I think it would 
fall within the appropriate mens rea that it would be 
actionable under Federal law.
    Mr. Coble. That would be my hope, that even though I've 
committed fraud against Mr. Scott in the phone call, he's 
saying he suffered no damages except giving me the truck. Thank 
you for that.
    We're going to probably have a second round of questions 
here, gentlemen, because my time is going to be up in a minute.
    Mr. Martin, let me put a question to you. Does the act of 
spoofing take on similar traits as other scams perpetrated on 
the elderly; and, if so, what are other scams and similarities?
    Mr. Martin. Yes, sir, I believe so, especially--like a few 
years ago. Coming over here, I recall I testified before one of 
the Subcommittees 7, 8, 9 years ago, on the telephone scams 
that were occurring with more frequency, and especially among 
the elderly, because as I said in my prepared remarks, the 
elderly are shut-ins, if you will, at home. Sometimes their 
only contact with the outside world is the telephone. And now, 
of course, as we get into the computer business, more and more 
relying on computers. But clearly, so many seniors live in a 
home, and they perhaps don't hear quite as well as they did 
some years ago, and they're lonely, quite frankly, and they're 
all alone, and so----
    Mr. Coble. And susceptible.
    Mr. Martin. And very susceptible to these scams, and it's 
just--it's heartbreaking when you hear some of these cases. But 
I did testify a few years ago along those lines, and of course, 
this is something new. As I said in my remarks, it's not a 
pandemic yet, but it's certainly something that's on the 
horizon. And we thank Mr. Murphy for introducing this bill, and 
we thank, sincerely, this Committee for holding these hearings.
    Mr. Coble. Thank you, sir.
    You may have mentioned this in your testimony, but were you 
able to determine who fraudulently used your caller ID, A; and, 
B, was the telephone company any help in determining how the 
fraudulent caller obtained your caller ID?
    Mr. Kiko. No, we were never able to determine that, and the 
telephone company was not--they were unable, really, to pursue 
this or to be of much help other than to say we had to call--
the other people that were calling, they were the ones that had 
to call to stop the number.
    Mr. Coble. The distinguished gentleman from Virginia, Mr. 
Scott.
    Mr. Scott. Thank you. Mr. Chairman, I'd like to follow up 
on, I guess it was your first question because, the operative 
language in the bill at the top of page 2 says, ``Whoever 
knowingly modifies caller ID information with intent to mislead 
the recipient of the call as to the identity of the person 
making the call shall be fined, imprisoned'' and so forth. So 
the intent is to mislead.
    What we have heard is we're not trying to cover those who 
mislead for innocent purposes. So under the exceptions, if we 
have any blocking of the caller ID, the person looking at the 
caller ID knows it's been blocked, so you're getting no 
information, rather than false information. And the second 
exception is law enforcement activities.
    So, Representative Murphy, I assume that you would want us 
to make it clear that this is not aimed at innocent 
misinformation?
    Mr. Murphy. Yes. That's why I look to the wisdom of the 
Committee on this, and it would be very helpful to do that; 
although I recognize that that is a--intent, as a very 
important example the Chairman used, would be a good one. On 
the other hand, if someone used a phoney caller ID to get you 
out of the house so they could come steal your truck, then it 
becomes that second level.
    Mr. Scott. We are not suggesting that the service should 
not be available at all; is that right?
    Mr. Murphy. That's not what I'm suggesting either, because 
what happens is--for example, if you were making a call out of 
your office in the House of Representatives from your private 
line on your desk, that number does not show up on the 
receiver, so it's not a matter of trying to prevent that from 
being done at all but its being done in misleading 
circumstances.
    Mr. Scott. In fact, a caller ID number is displayed. It's 
just the number for the switchboard, not--or some other number 
that you can't get through.
    Mr. Murphy. That's correct.
    Mr. Scott. A number is displayed----
    Mr. Murphy. Yes.
    Mr. Scott.--showing what looks like a congressional office. 
It's just not your number.
    Mr. Murphy. It's the same thing. Many businesses use that 
so that the individual's private line on their desk is not 
accessible for people to call.
    Mr. Scott. And sometimes you would want displayed a better 
number to call back, so it is a friendly----
    Mr. Murphy. Correct.
    Mr. Scott. If you've got five lines in your office and you 
pick up one line, and if they call back, you'd like them to 
call the first line, you're not aiming at that.
    Mr. Murphy. Not at all.
    Mr. Scott. So the service should be available, just not for 
criminal activities.
    Under the exceptions, Mr. Sabin, you have law enforcement 
exceptions. Are there other--should there be other exceptions? 
I know women's shelters have an interest in keeping the phone 
number secret. Are there ways of getting other exceptions in 
here?
    Mr. Sabin. We're open to working with the Committee to 
establish appropriate exceptions. The two that are articulated 
in the draft bill, we believe, are proper, and we would support 
both the law enforcement exception for law enforcement 
intelligence purposes as well as the call blocking. As to your 
prior----
    Mr. Scott. The call blocking is not an issue because that's 
not false information.
    Mr. Sabin. Correct.
    Mr. Scott. The person knows they're not getting the 
information, so that--and that's--I think we've covered that--
--
    Mr. Sabin. Okay.
    Mr. Scott.--but could there be other legitimate purposes 
for misinformation? I think the women's shelters all have 
caller ID blocked.
    Mr. Sabin. Right. So you could have certain means by which 
the person who is making--receiving the call could have the 
call-blocking mechanism instituted so you could have that kind 
of protection.
    Mr. Scott. I mean the outgoing calls from a women's 
shelter----
    Mr. Sabin. Okay. So then you could have that means as well.
    Mr. Scott.--would have, I think, blocked information. Would 
they be--would you want them to have the option of having 
another callback number, misinformation?
    Mr. Sabin. See, that goes to the range of choices and the 
preferences of what number you would want to have the--
receiving for the number; so you could work through certain 
circumstances involving that, but that just is a restriction of 
choice in that regard.
    Mr. Scott. Okay. Mr. Chairman, if there's going to be 
another round, I just have another series, and I'll just begin 
the next series.
    Mr. Coble. Yes, we'll have a second round.
    The distinguished gentleman from Florida, Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman, and let me begin with 
my colleague, Mr. Murphy.
    Is there currently any criminal statute that specifically 
prohibits spoofing?
    Mr. Murphy. Not that I'm aware of. In fact, the Web sites 
for these specifically say it is legal to do this.
    Mr. Keller. Okay. Mr. Sabin, let me put that to you.
    There is no specific, at least Federal statute, in the area 
of spoofing?
    Mr. Sabin. Correct. There is no specific Federal statute. 
We rely upon other statutes to address the fraud under Title 18 
as well as, for example, unlawful access to computer systems 
without authority. Under Title 18, United States Code, section 
1030, 2701, relating to unopened voice mail is another 
provision. So there are certain provisions that we can sort of 
``ad hoc'' approach, but in terms of clarity and specificity, 
we support the implementation of a specific bill targeting 
spoofing.
    Mr. Keller. So if you had like a crystal-clear case brought 
to you by some law enforcement agency and asked DOJ to 
prosecute it, you would have to use some more generic, general 
fraud statute or refer it to, like, the State to see if there's 
any State statute on point?
    Mr. Sabin. I'm not aware of any States. I had some 
discussion with folks. I believe there's a bill pending in 
Alaska, and maybe one in Florida, on the State level.
    What we have seen is the concept of SWATing where there's a 
number of incidents where--hostage pranks or representations 
that hostage-taking or bomb incidents are occurring, and you 
have SWAT teams respond to a particular location. And that kind 
of hoax is obviously a drain on law enforcement resources and 
of concern to the individuals whose homes are surrounded by 
SWAT teams. So that's another kind of Federal offense or 
incidence of factual circumstances that we've seen.
    Mr. Keller. Before I move on to Mr. Murphy, let me say I 
noticed in the penalties here it has a fine or a penalty of up 
to 5 years. And there's no mandatory minimums--which I've been 
around Chairman-Elect Scott for a long time now, for 6 years--I 
would think because it doesn't have the mandatory minimum, that 
would make it easier for him to swallow. I will yield him time 
to respond to that.
    Mr. Scott. I think the gentleman knows me well.
    Mr. Keller. Okay. So that's good. You've drafted it well, 
and hopefully we'll be able to move this at some point for you.
    Mr. Kiko, as the chief of staff of the Judiciary Committee, 
you were a victim of this, I see, so they have really spoofed 
the wrong person here.
    Mr. Kiko. Yeah, I think they have.
    Mr. Keller. I think I may be a victim of spoofing, too. I 
keep getting calls from this organization called Jenny Craig, 
and I can't imagine why they'd be calling me, but----
    Mr. Murphy. I might add, on Mr. Kiko's calls, I believe he 
began to get those calls after we introduced our bill. There is 
no link between that in order to help him to move this bill.
    Mr. Keller. Okay. Mr. Martin, have you heard from members 
of your organization who have fallen victim to this scheme as 
well?
    Mr. Martin. Mr. Keller, not many as I said in my testimony, 
but it is a growing problem. It is on the horizon. We're aware 
of that, and we really are appreciative that this Committee is 
moving ahead and being proactive on this issue.
    Mr. Keller. Well, I want to just conclude by commending 
Congressman Murphy for drafting this legislation. I think it's 
not only a worthy issue, but you've drafted it in a nice, 
narrow way that I think should ultimately enjoy bipartisan 
support, and I appreciate all of your time and effort in this.
    And, Mr. Chairman, I'll yield back.
    Mr. Coble. I thank the gentleman from Florida, and since 
there are only three of us here, we will have a brief second 
round.
    Mr. Murphy and/or Mr. Sabin, distinguish between your bill, 
Mr. Murphy, and the House-passed Truth in Caller ID Act.
    Mr. Murphy. Well, sir, in the previous bill, the Truth in 
Caller ID Act, asked the FCC to create a rule to make caller ID 
fraud illegal after 6 months within enactment. It has no 
penalties with it. I don't think it provides any of the 
distinctions. It is truly left up to the FCC to provide the 
definitions. And the problem is that if one continues--if one 
gets the equipment and can develop this on their own at home, 
just because it's illegal you may shut down Web sites, but you 
don't stop individuals from using that, especially if there is 
no penalty involved with that. And I think that at the level 
this is and how it can be used nationally for major crimes, it 
is important that we actually put some teeth behind this and 
some penalties.
    Mr. Coble. Do you concur, Mr. Sabin?
    Mr. Sabin. I do. I agree in terms of the law enforcement 
objective. And I also believe it addresses, if I'm not 
mistaken, not only land line cell phones but Voiceover Internet 
Protocol, which I'm not sure was in the other bill.
    Mr. Coble. Well, now that I have you in my sights, Mr. 
Sabin, I'll come back with a second question.
    Mr. Sabin. My pleasure.
    Mr. Coble. You testified that terrorists, kidnappers and 
other criminals oftentimes use caller ID spoofing to mislead 
law enforcement or to throw them off the trail of their 
criminal investigations.
    Do you know of any cases in which this has actually 
happened?
    Mr. Sabin. My point was relating to SWATing, the idea that 
you have a dire emergency situation. And we have, in talking to 
the investigative authorities, 30 to 40 incidents that have 
occurred nationwide where you have SWAT team responses to a 
particular location where caller ID spoofing had caused that 
kind of response to be one that drains time, energy and 
resources as well as to, obviously, the victims at the 
particular location. So, yes, it has obviously the potential, 
as other panelists have mentioned, but those are grounded in 
specific incidents of SWATing responses.
    Mr. Coble. Thank you, sir. Mr. Murphy.
    Mr. Murphy. Mr. Chairman, if I can add to that, some of the 
risk, too, is that not only do these services change your phone 
number, they'll also offer to disguise your voice. They'll 
change a male to a female voice and a female to a male voice, 
which actually adds to some of the risk and prevents law 
enforcement from finding out. They cannot do a quick star 69 or 
star 57 to trace the call and find out where this is really 
coming from.
    It really in many cases--I believe it may even require a 
subpoena to track that down. And if they don't even know what 
the voice is, that adds to the risk.
    One of the things I worry about with the SWAT instances, 
imagine some poor fellow who walks out of his house, who maybe 
is about to go hunting, only to see a number of people there 
with their guns up at him. Luckily, no one has been harmed 
under these circumstances yet, but I think it is a very 
dangerous situation.
    Mr. Coble. Thank you. I have about 2 minutes to go.
    Mr. Martin, do you or Mr. Kiko want to add anything? I have 
no further questions.
    Mr. Martin. No.
    Mr. Kiko. No, sir.
    Mr. Coble. The distinguished gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. I just have one or two 
questions.
    First, Mr. Sabin, you mentioned civil as well as criminal 
sanctions. By ``civil sanctions,'' did you mean the Department 
of Justice bringing a civil action; or did you mean a private 
cause of action against the spoofer, which I think would 
probably go without saying? I mean it's--certainly, you could 
find that under the previous tort system.
    Would there be a specific right of action, or are you 
talking about DOJ action?
    Mr. Sabin. DOJ, potentially injunctive relief, potentially 
other kinds of civil remedies for a particular tort or the 
like.
    Mr. Scott. And would there be any difficulty in the victim 
having a civil--a private right of action?
    Mr. Sabin. I don't think we would be opposed to that. I 
haven't really thought through that aspect, but I believe that 
that would be appropriate to pursue by the particular victim 
through their own lawyer and bringing of that suit.
    Mr. Scott. But you wouldn't be--and do you think we would 
need to specifically put that in the bill, that there is a 
right of action; or do you think there's just inherently a 
right of action when you have committed--when you have 
victimized somebody like this, that there is just an inherent 
right of action?
    Mr. Sabin. I would think we would want--I would want to 
talk to the subject matter experts on that, but I think that 
that would be a particular cause of action in some kind of 
civil tort that would be available.
    Mr. Scott. Already, under present law.
    Mr. Sabin. Yeah, I believe that's accurate, but I can check 
with the Subcommittee on that.
    Mr. Scott. Thank you. And also on the sentencing, since we 
have a Sentencing Commission, would not the Sentencing 
Commission establish guidelines for the appropriate sentence 
based on the level of harassment, the level of fraud, the 
amount of money involved in the fraud, and the number of people 
victimized? Would the Sentencing Commission be able to deal 
with that appropriately within the bill?
    Mr. Sabin. Yes. You would have the Sentencing Commission 
apply those and other factors to provide uniformity throughout 
the Nation on a sentencing basis.
    Our suggestion was that, based upon the means by which this 
was used to facilitate another crime and the egregiousness of 
that crime, you could have a statutory maximum that would, like 
in Title 18, I believe, either 1028 or 1030, have a graduated 
series of penalties as a statutory basis of 5 years or 10 
years, or even as to a misdemeanor level to provide the full 
breadth of prosecutorial options.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Coble. Thank you, Mr. Scott.
    Before we adjourn, Mr. Kiko, speaking for Mr. Scott and the 
entire membership of this Subcommittee, we thank you for your 
many years of service on the Hill, and we thank the other three 
witnesses for your time and your testimony today.
    In order to ensure a full record of the adequate 
consideration of this important issue, the record will be left 
open for additional submission for 7 days. Also, any written 
questions that a Member wants to submit should be submitted 
within this same 7-day period.
    This concludes the legislative hearing on the Preventing 
Harassment through Outbound Number Enforcement Act. Thank you 
for your cooperation, and the Subcommittee stands adjourned.
    [Whereupon, at 10:54 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
